OIG Investigative Reports, Eight Admissions Representatives Charged with Pell Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
United States Attorney for the
Southern District of Florida
99 N.E. 4 Street
Miami, FL 33132
(305) 961-9001
PRESS RELEASE:
Florida April 4, 2003
For Information Contact Public Affairs:
Jacqueline Becerra,
Acting Special Counsel for Public Affairs,
(305) 961-9243
Marjorie M. Selige,
Public Affairs Specialist,
(305) 961-9048
Eight Admissions Representatives Charged with Pell Grant Fraud
Marcos Daniel Jiménez, United States Attorney for the Southern District of Florida, and Lester Fernandez, Special Agent in Charge, United States Department of Education, Office of Inspector General, announced today the unsealing of three multi-count criminal Indictments charging eight former admissions representatives at local vocational schools with Pell Grant fraud, wire fraud, mail fraud and conspiracy to commit the same. The defendants charged in the respective Indictments are Teresa Leon, Irma Warren, Jaime Baudelino Hurtado, Maria Esther Mena, Henry Robert Jean Leger, Andrea Cainzos Garrote, Maria Ofelia Garcia, and Andrea del Carmen Mongalo.
The Indictments allege that the eight defendants, while acting as admissions representatives at the Hialeah Technical Center, Miami Technical Institute and the Miami Institute of Technology, procured students to falsify financial information to qualify the students for Pell Grant funds that were paid to the schools by the United States Department of Education from 1994 through 2000.
Mr. Jiménez commended the investigative efforts of the United States Department of Education, Office of Inspector General. The case is being prosecuted by Assistant United States Attorney Christopher J. Clark.
Top
Printable view
Share this page
Last Modified: 03/01/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov